NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




                                     Semiannual Report
                                        to the Congress
                                        October 1, 2013 – March 31, 2014




      Semiannual Report to the Congress, October 1, 2013 – March 31, 2014
NCUA Office of Inspector General




TABLE OF CONTENTS

A Message from the Inspector General ....................................................................................... i

The NCUA and Office of Inspector General Missions ...............................................................1

Introduction ....................................................................................................................................2

NCUA Highlights ...........................................................................................................................5

Federally Insured Credit Union Highlights.................................................................................8

Legislative Highlights ....................................................................................................................9

Office of inspector General .........................................................................................................11

Audit Activity ...............................................................................................................................12

Investigative Activity ...................................................................................................................22

Legislative and Regulatory Reviews...........................................................................................26

Table I: Issued Reports with Questioned Costs .......................................................................28

Table II: Issued Reports with Recommendations that Funds Be Put to Better Use.............29

Table III: Summary of OIG Activity October 1, 2013 through March 31, 2014 ..................30

Index of reporting requirements ................................................................................................31

Appendix A: System review report (Peer Review of NCUA OIG) ..........................................32




                    Semiannual Report to the Congress, October 1, 2013 – March 31, 2014
NCUA Office of Inspector General




A MESSAGE FROM THE INSPECTOR GENERAL


On behalf of the Office of Inspector General (OIG) of the National Credit Union Administration
(NCUA), I am pleased to present our Semiannual Report to the NCUA Board and the Congress
highlighting our accomplishments and ongoing work for the six-month period ending March 31,
2014. Our work reflects the legislative mandate of the Inspector General Act of 1978, as
amended, to promote the economy, efficiency, and effectiveness of NCUA programs and
operations, and protect against fraud, waste, and abuse. The audits and investigations
highlighted in this report demonstrate our commitment to that cause as well as our goal of
enhancing public confidence in the regulatory process.

On the audit side, we continued to work on Material Loss Reviews (MLRs) and issued three
MLR reports: Chetco Federal Credit Union; G.I.C. Federal Credit Union; and Taupa Lithuanian
Credit Union. We discuss each report in more detail in the body of this report. We anticipate
that in 2015, we will see a reduction in MLRs and reduce this particular workload to our lowest
level since the start of the financial crisis in late 2007. We also focused on mission critical areas
such as the National Credit Union Share Insurance Fund (NCUSIF) and conducted a review of
NCUA’s process for documenting NCUSIF losses and credit union failures. We made
substantive recommendations that will help the agency formalize procedures to better track loss
estimates and failure data.

During this reporting period we also issued a comprehensive report on the NCUA’s information
security program in accordance with the Federal Information Security Management Act of 2002
(FISMA). FISMA provides a comprehensive framework for ensuring the effectiveness of
information security controls over information resources that support federal operations and
assets. Consistent with FISMA’s requirements, we performed an annual independent evaluation
of the NCUA’s information security program and practices. In the FISMA report, we
highlighted steps that the agency could take to improve the security of its information resources.

On the investigative side, the Office of Investigations (OI) saw increased activity. OI opened
four cases during the reporting period, the majority stemming from complaints alleging non-
criminal employee/manager misconduct. The OI also conducted an investigative review and
prepared a Management Implication Report (MIR) for another OIG based on a complaint
alleging inappropriate personnel practices. The OI closed three cases during the reporting
period: one case that was opened in the previous reporting period and two that were opened in
the present reporting period. In total, the OI issued two Reports of Investigation (ROI) and one
MIR.

Finally, I would like to thank Chairman Matz and Board Members Fryzel and Metsger for their
sustained support of the OIG’s work. More than ever, the OIG is dedicated to accomplishing its
mission of conducting independent audits, investigations, and reviews to help the NCUA accomplish
its mission; improve its effectiveness; and prevent and detect fraud, waste, and abuse. As in the past,



Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                          Page | i
NCUA Office of Inspector General




the NCUA Board and management have been responsive in attempting to implement all OIG
recommendations. I appreciate management’s support and I look forwarding to working with them
in our ongoing efforts to promote economy and efficiency in agency programs.




                                   James W. Hagen
                                   Inspector General




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014              Page | ii
NCUA Office of Inspector General




THE NCUA MISSION

NCUA’s charge is to provide, through regulation and supervision, a safe and sound credit union
system which promotes confidence in the national system of cooperative credit.




THE OFFICE OF INSPECTOR GENERAL MISSION

The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
operations, and detects and deters fraud, waste, and abuse, thereby supporting the NCUA’s
mission of monitoring and promoting safe and sound federally insured credit unions.
We accomplish our mission by conducting independent audits, investigations, and other
activities, and by keeping the NCUA Board and the Congress fully and currently informed of our
work.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                   Page | 1
NCUA Office of Inspector General




INTRODUCTION

The NCUA was established as an independent, federal regulatory agency on March 10, 1970.
The agency is responsible for chartering, examining, supervising, and insuring federal credit
unions. It also insures state-chartered credit unions that have applied for insurance and have met
National Credit Union Share Insurance requirements. The NCUA is funded by the credit unions
it supervises and insures. As of December 31, 2013, the NCUA was supervising and insuring
4,105 federal credit unions and insuring 2,449 state-chartered credit unions, a total of 6,554
institutions. This represents a decline of 167 federal and 98 state-chartered institutions since
December 31, 2012, for a total decline of 265 credit unions nationwide, primarily as a result of
mergers and liquidations.



                                Federally Insured Credit Unions


            8000

            7000

            6000    2840       2750
                                         2647
                                                    2547
                                                              2449
            5000

            4000                                                                       FISCUs
                                                                                       FCUs
            3000
                    4714       4589      4447
            2000                                    4272      4105


            1000

               0
                    2009       2010      2011       2012      2013




The NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-year
terms. Terms are staggered, so that one term expires every two years. The Board is responsible
for the management of the NCUA, including the NCUA Operating Fund, the Share Insurance
Fund, the Central Liquidity Facility, the Community Development Revolving Loan Fund, and
the Temporary Corporate Credit Union Stabilization Fund.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                      Page | 2
NCUA Office of Inspector General




The NCUA executes its program through its central office in Alexandria, Virginia and regional
offices in Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe,
Arizona. The NCUA also operates the Asset Management and Assistance Center (AMAC) in
Austin, Texas. Please refer to the NCUA organizational chart below.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                  Page | 3
NCUA Office of Inspector General




The NCUA Board adopted its 2014 budget of $268,290,296 on November 21, 2013. The Full-
Time Equivalent (FTE) staffing authorization for 2014 is 1,262.50 representing an increase of
one FTE from 2013.


                                              NCUA Budget Dollars
                                300

                                250

                                200
              Millions




                                150

                                100

                                 50

                                  0
                                       2010     2011      2012        2013   2014




                                              NCUA Authorized Staff
                                1300

                                1250
              Employees (FTE)




                                1200

                                1150

                                1100

                                1050

                                1000
                                       2010     2011      2012        2013   2014




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                   Page | 4
NCUA Office of Inspector General




NCUA HIGHLIGHTS

NCUA to Receive More Than $1.4 Billion in JPMorgan Chase Settlement

On November 19, 2013, NCUA announced that, along with the U.S. Department of Justice and
other governmental plaintiffs, it was part of a $13.0 billion settlement with JPMorgan Chase and
affiliated companies. The settlement resolves four suits NCUA filed against JPMorgan Chase,
Bear Stearns and Washington Mutual for corporate credit union losses resulting from the sale of
faulty residential mortgage-backed securities (RMBS). Under the settlement, NCUA will
receive $1.417 billion. As part of the agreement, JPMorgan Chase acknowledged it made
serious misrepresentations to the public about numerous RMBS transactions.

With this settlement, NCUA has recovered more than $1.75 billion in settlements, including
more than $335 million in claims settled with Citigroup, Deutsche Bank Securities, HSBC and
Bank of America. NCUA uses the net settlement proceeds to reduce Temporary Corporate
Credit Union Stabilization Fund (Stabilization Fund) assessments it charges to federally insured
credit unions to pay for the losses caused by the failure of five corporate credit unions.

On February 12, 2014, NCUA announced that as a result of strong asset management and
significant recoveries from the various settlements, there will likely be no need for future
assessments.

NCUA Financial Statements Earn Clean Audit Opinions for 2013

On February 18, 2014, the NCUA released its 2013 audited financial report for the agency’s four
permanent funds: the National Credit Union Share Insurance Fund (Share Insurance Fund); the
Central Liquidity Facility; the Community Development Revolving Loan Fund; and the
Operating Fund. All four funds received unmodified or “clean” audit opinions, including the
Share Insurance Fund which protects deposits up to $250,000 for nearly 96 million consumers at
6,550 federally insured credit unions. KPMG LLP was the independent auditor for all four
funds.

KPMG LLP also issued an unmodified opinion on the Stabilization Fund 2013 financial
statements on March 17, 2014. This marks the fifth consecutive clean audit opinion for the
Stabilization Fund. Since releasing the 2010 Stabilization Fund audit, NCUA has continued to
strengthen the systems needed to handle the Stabilization Fund’s many complex transactions,
including those related to the NCUA Guaranteed Notes.

The Stabilization Fund was established in May 2009 to accrue the losses of the corporate credit
unions crisis and to recover such losses over time. It allows the NCUA Board to mitigate a
onetime assessment burden on insured credit unions for corporate credit union stabilization
actions by spreading the costs over multiple years. At its discretion, the Board determines if and
when to assess premiums over the life of the Stabilization Fund. From its inception through



Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                       Page | 5
NCUA Office of Inspector General




2013, NCUA collected $4.8 billion in special premium assessments from federally insured credit
unions.

NCUA’s Financial Statement Audit reports for 2013 are available here on the NCUA OIG
website.

NCUA National Credit Union Share Insurance Fund Continues Positive Trends

The Share Insurance Fund ended 2013 in a stronger position due to continued improvement in
the performance of federally insured credit unions and a decline in insurance and guarantee
program liabilities. The Share Insurance Fund had a 1.30 percent equity ratio, calculated on an
insured share base of $866.3 billion at the end of 2013. This represented a 3.2 percent growth
over the 2012 insured base of $839.4 billion. The net position of the Share Insurance Fund
remained steady at $11.3 billion at the end of 2013.

NCUA Board Chairman Matz stated: “Protecting the Share Insurance Fund is NCUA’s top
priority, and the 2013 year-end results reflect the agency’s prudent management and effective
approach to regulation.” NCUA Board Chairman Matz also stated: “The metrics continue
trending in the right direction. The number of federal credit unions with CAMEL codes 3, 4 and
5 continued to decline, as did the exposure level of potential losses.” Specifically, NCUA’s
Chief Financial Officer reported:

      The total number of CAMEL code 3, 4 and 5 credit unions dropped 7.9 percent from
       1,940 at the end of 2012 to 1,787 at the end of 2013.

      Assets of CAMEL code 3 credit unions decreased from $119.3 billion as of December
       31, 2012 to $108.6 billion at the end of the fourth quarter of 2013, a 9.0 percent decline.

      Assets of CAMEL code 4 and 5 credit unions fell to $13.8 billion at the end of 2013, a
       27.4 percent decrease from $19 billion at the end of 2012.

Overall, the amount of assets in CAMEL code 3, 4 and 5 credit unions decreased 40.5 percent
from its high in September 2010. These continuing positive trends and other factors contributed
to a $191.8 million (46.5 percent) net decrease in the Share Insurance Fund’s reserve for
insurance losses during 2013.

Also during 2013, there were 17 credit union liquidations and assisted mergers, compared to 22
in 2012, and total losses associated with failures decreased 68 percent from $210.5 million in
2012 to $66.8 million in 2013.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                       Page | 6
NCUA Office of Inspector General




Upper End of Projected Loss Range for Failed Corporates Continues Decline

Total projected assessments associated with the Temporary Corporate Credit Union Stabilization
Fund declined $2.2 billion at the upper end between July and December 2013. The sharp drop
was due largely to the JPMorgan Chase settlement in November 2013.

The current projected range for total future remaining assessments is now between negative $2
billion and negative $600 million. At the end of the second quarter of 2013, the total range was
negative $200 million to $1.6 billion. The overall rate of change in the assessment range is
consistent with recent trends, and the continued improvement in the performance of the legacy
assets underlying the NCUA Guaranteed Note program.

NCUA’s Board announced at its November 2013 meeting there would be no planned
Stabilization Fund assessment in 2014. As long as both ends of the projected range of net
remaining assessments remain negative, there will likely be no need for future assessments.

President Obama Nominates J. Mark McWatters to NCUA Board

President Obama announced the nomination of Texas tax attorney and former Troubled Asset
Relief Program (TARP) panel member J. Mark McWatters to the NCUA Board in December
2013.

McWatters served as counsel for Rep. Jeb Hensarling (R-Texas) in 2009. He was a member of
the TARP panel in Washington from December 2009 to April 2011. McWatters currently is
assistant dean for graduate programs at Southern Methodist University's School of Law in
Dallas.

At his confirmation hearing in March 2014 McWatters previewed his overall approach to
regulation in his opening statement, saying his focus as a regulator "will remain straightforward:
Don't neglect the fundamentals of capital, liquidity, and transparency, and always remember that
the greatest threat to a financial system may reside where you least expect it--hidden within plain
view." McWatters stated that he pledged to "work diligently to ensure the continued integrity
and safety and soundness of our nation's credit union system in an ever-evolving marketplace...I
will aim to balance competing viewpoints while maintaining the safety and soundness of the
credit union system, safeguarding the Share Insurance Fund, enforcing consumer protection
rules, and protecting taxpayers and credit union members from losses."

If confirmed, McWatters would fill Republican Michael Fryzel’s spot on the three-person board.
Fryzel has been serving since July 2008 and his term has expired.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                       Page | 7
NCUA Office of Inspector General




FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An
NCUA staff assessment of the December 31, 2013, quarterly call reports submitted by all
federally insured credit unions found that key financial indicators are positive.

Key Financial Indicators Favorable

Looking at the December 31, 2013 quarterly statistics for major balance sheet items and key
ratios shows the following for the nation’s 6,554 federally insured credit unions: assets grew 3.93
percent; net worth to assets ratio increased from 10.43 to 10.78 percent; the loan to share ratio
increased from 68.06 percent to 70.90 percent. The delinquency ratio decreased from 1.16 to
1.01 percent however, credit union return on average assets decreased from .85 to .78 percent.

Savings Shifting to Regular Shares

Total share accounts increased 3.67 percent. Regular shares increased 8.06 percent. Regular
shares comprise 32.67 percent of total share accounts; share certificates comprise 21.05 percent;
money market shares comprise 23.36 percent; share draft accounts comprise 13.07 percent; and
all other share accounts comprise 9.86 percent.

Loan Volume Increasing

Loans increased 7.98 percent resulting in an increase in total loans by $47.7 billion. Total net
loans of $645 billion comprise 60.76 percent of credit union assets. First mortgage real estate
loans are the largest single asset category with $268 billion accounting for 41.50 percent of all
loans. Other real estate loans of $71 billion account for 11.01 percent of all loans. Used car
loans of $127 billion were 19.73 percent of all loans, while new car loans amounted to $71
billion or 11.07 percent of total loans. Credit card loans totaled $43 billion or 6.60 percent of
total loans and other loans totaled $65 billion for 10.08 percent of total loans.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                       Page | 8
NCUA Office of Inspector General




LEGISLATIVE HIGHLIGHTS

NCUA Joins Federal Financial Regulators to Propose Standards for Assessing Diversity

In a joint release issued on October 23, 2013, NCUA joined five other federal financial
regulators in proposing standards for assessing the diversity policies and practices of the
institutions they regulate, as required by Section 342 of the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act). The proposed standards are intended to promote
transparency and awareness of diversity policies and practices within the institutions. The
proposed assessment standards would address four key areas:

      Organizational commitment to diversity and inclusion;
      Workforce profile and employment practices;
      Procurement and business practices and supplier diversity; and
      Practices to promote transparency of organizational diversity and inclusion.

NCUA Chairman Debbie Matz noted that the diversity assessments would not be part of
traditional examinations or supervisory activities. Rather, credit unions meeting the Equal
Employment Opportunity Commission filing criteria threshold with at least 100 employees
would report their self-assessments to NCUA. NCUA would then report the aggregate results to
Congress annually. Currently, about 600 federally insured credit unions have more than 100
employees. All credit unions are encouraged to adopt the self-assessment standards voluntarily.

The Dodd-Frank Act required NCUA and other regulators to each create an Office of Minority
and Women Inclusion (OMWI), which is responsible for developing standards for assessing
diversity policies and practices of regulated entities. The proposed standards are aimed at
creating uniformity across the regulating agencies.

Federal Regulators Provide Guidance on Qualified Mortgage Fair Lending Risks

On October 22, 2013, five federal financial regulators, including NCUA, issued a statement to
address industry questions about fair lending risks associated with offering Qualified Mortgages
(QMs). The statement was in response to creditors’ requests for clarity regarding whether the
disparate treatment doctrine of the Equal Credit Opportunity Act (ECOA) and its implementing
regulation, Regulation B, allows them to originate only QMs. For the reasons set forth in the
joint statement, the five agencies do not anticipate that a creditor’s decision to offer only QMs
would, absent other factors, elevate a supervised institution’s fair lending risk.

The Consumer Financial Protection Bureau’s Ability-to-Repay Rule implements provisions of
the Dodd-Frank Act that require creditors to make a reasonable, good faith determination that a
consumer has the ability to repay a mortgage loan before extending credit to the consumer.
Lenders are presumed to have complied with the Ability-to-Repay Rule if they issue QMs, which



Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                      Page | 9
NCUA Office of Inspector General




must satisfy requirements that prohibit or limit risky features that harmed consumers in the
recent crisis.

The ECOA makes it illegal for a creditor to discriminate in any aspect of a credit-based
transaction based on characteristics including race, religion, marital status, color, national origin,
sex, and age.

In January 2014, NCUA issued a Supervisory Letter to all field staff providing information about
the new Ability-to-Pay and Qualified Mortgage Rule (ATR/QM) issued by CFPB. The Letter
advised that, in addition to the requirement that lenders consider a consumer’s ability to repay a
home loan before extending credit to them, the rule established standards for QMs that meet the
ability-to-repay requirements. Further, the rule provides a safe harbor for lenders that originate
QMs. The rule applies to new mortgage loans made on or after January 10, 2014.

The letter, which applies to the supervision of all federally insured credit unions, also established
supervisory expectations with respect to credit unions’ compliance with the new rule, including
ensuring that credit unions meet certain risk-management expectations with regard to QM and
non-QM loans.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                        Page | 10
NCUA Office of Inspector General




OFFICE OF THE INSPECTOR GENERAL

The Office of the Inspector General was established at the NCUA in 1989 under the authority of
the Inspector General Act of 1978, as amended. The staff consists of the Inspector General,
Deputy Inspector General, Counsel to the Inspector General/Assistant Inspector General for
Investigations, Director of Investigations, three Senior Auditors, Senior Information Technology
Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
Inspector General is responsible for:

   1. Conducting, supervising, and coordinating audits and investigations of all NCUA
      programs and operations;

   2. Reviewing policies and procedures to ensure efficient and economic operations as well as
      preventing and detecting fraud, waste, and abuse;

   3. Reviewing existing and proposed legislation and regulations to evaluate their impact on
      the economic and efficient administration of agency programs; and

   4. Keeping the NCUA Board and the Congress apprised of significant findings and
      recommendations.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                   Page | 11
NCUA Office of Inspector General




AUDIT ACTIVITY

Audit Reports Issued

OIG-13-10 – October12, 2013
Material Loss Review of Chetco Federal Credit Union

The OIG contracted with Crowe Horwath LLP to conduct a Material Loss Review (MLR) of
Chetco Federal Credit Union. We reviewed Chetco to: (1) determine the cause of the failure and
resulting loss to the NCUSIF; (2) assess NCUA's supervision of the credit union; and (3) make
appropriate recommendations to prevent future losses.

Our review determined Chetco failed due to inadequate management and board oversight. The
Board of Directors and management exposed the credit union to excessive amounts of credit and
liquidity risk due to its failure to set appropriate limits and maintain the appropriate risk
management infrastructure to support the growth in the Member Business Loan (MBL) portfolio.
In addition, we determined examiners missed the opportunity to reduce the loss to the Share
Insurance Fund. We believe that red flags were present, which may have indicated the existence
of governance issues affecting the management of MBL credit risk. Although we cannot
conclude that further analysis by examiners would have prevented the credit unions liquidation,
we can reason that these observations might have served as a red flag prompting examiners to
expand the scope of the review of the MBL portfolio sooner.

OIG-13-11 – October 29, 2013
Review of NCUA’s Process for Documenting Share Insurance Fund Losses and Credit Union
Failures

The OIG conducted a self-initiated review of NCUA’s process for documenting credit union
failures and their associated share insurance fund losses. Our objective for this review was to
determine NCUA’s methodology for identifying and tracking credit union failures and losses to
the Share Insurance Fund.

The results of our review disclosed NCUA management could strengthen its documenting of
Share Insurance Fund estimated losses for specific credit union failures. Specifically, we
determined the Office of Examination and Insurance, the Office of the Chief Financial Officer,
and the Asset Management and Assistance Center documented different estimated Share
Insurance Fund loss amounts throughout the year. However, we determined these differences
were mostly attributable to timing differences and new information that is continually received,
which causes the estimated Share Insurance Fund loss amounts to change frequently. In
addition, we determined that each of these offices may not document Share Insurance Fund loss
activity in a timely manner, and regional and central offices document losses into independent,
nonintegrated systems. However, despite these offices having differing estimated loss amounts




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                    Page | 12
NCUA Office of Inspector General




throughout the year due to timing, we also determined that they ensure the estimated Share
Insurance Fund loss amounts agree at year-end for financial statement reporting.

In addition, we determined NCUA management could strengthen its ability to capture basic
credit union failure data. Specifically, we identified discrepancies between NCUA’s regional
and central offices when reporting the dates and types of credit union failures. This occurred
because each office defines the timing of a failure in a different manner and uses independent,
nonintegrated systems. The report made three recommendations to NCUA management related
to revising internal procedures, conducting a feasibility study, and developing an agency-wide
definition for credit union failure, all of which we believe will help correct the deficiencies
discussed in this report. NCUA management agreed with all three recommendations.

OIG-13-12 – November 22, 2013
Independent Evaluation of the NCUA’s Compliance with the Federal Information Security
Management Act (FISMA) 2013

The OIG engaged Mitchell & Titus, LLP to independently evaluate its information systems and
security program and controls for compliance with the Federal Information Security
Management Act (FISMA), Title III of the E-Government Act of 2002.

NCUA has worked to significantly strengthen its information security and privacy programs
during Fiscal Year (FY) 2013. We believe that many of the improvements within the agency’s
information security program are the result of the acquisition of additional dedicated resources
within the Office of the Chief Information Officer to address information security issues.
However, while NCUA continues to make improvements in the following areas, we identified
remaining issues in these areas from last year’s FISMA review that NCUA officials need to
address:

   Finalizing its Continuous Monitoring Policies, Procedures, and Strategy;

   Finalizing its Risk Management Policies and Procedures;

   Improving its Configuration Management Program;

   Improving its New Hire Security Awareness Training Program; and

   Improving Oversight and Management of its Contractor Systems.

In addition, we identified a new finding pertaining to NCUA’s remote access program. We
made nine recommendations in these areas, which will help NCUA continue to improve its
information security program.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                     Page | 13
NCUA Office of Inspector General




OIG-13-13 –December 2, 2013
Material Loss Review of G.I.C Federal Credit Union

The OIG contracted with Moss Adams LLP to conduct a Material Loss Review (MLR) of G.I.C.
Federal Credit Union (G.I.C. or the Credit Union), a federally insured credit union. Although the
anticipated loss to the Share Insurance Fund for G.I.C. did not meet the statutory loss threshold
to require an MLR, we identified the circumstances surrounding the failure of G.I.C. as unusual
in nature and therefore determined an MLR should be performed. We reviewed G.I.C. to: (1)
determine the cause of the failure and resulting loss to the NCUSIF; (2) assess NCUA's
supervision of the credit union; and (3) make appropriate recommendations to prevent future
losses.

We determined G.I.C. failed due to overstatement of $8.1 million in assets, primarily
investments in certificates of deposit and cash, allegedly due to fraud. According to the FPR
filed just prior to the discovery of the alleged fraud, the Credit Union reported total assets of
approximately $15 million, and total liabilities of $13 million, which Credit Union management
reported were comprised entirely of member shares. Region III officials determined the Credit
Union to be insolvent and on December 13, 2012, NCUA liquidated G.I.C. The factors that
created an environment in which such overstatement could go undetected were: (1) questionable
management integrity and performance; (2) weak supervisory committee oversight; and (3) weak
board of directors oversight.

As a result of our review, we made two observations and four recommendations to NCUA
management related to increasing compliance with audit report filing requirements and
enhancing examination procedures related to evidence of account balances. Management agreed
with the recommendations.

OIG-14-01/02/03/04 – February 18, 2014
NCUA Financial Statements Audit 2013: Community Development Revolving Loan Fund,
Central Liquidity Facility, Operating Fund, Share Insurance Fund

Our contracting audit firm, KPMG LLP, issued opinions on the 2013 financial statements of the
National Credit Union Administration Community Development Revolving Loan Fund,
Operating Fund, Central Liquidity Facility, and the National Credit Union Share Insurance Fund.
The auditors found that the financial statements presented fairly the financial position of the
agency’s funds as of December 31, 2013.

The Community Development Revolving Loan Fund’s (OIG-14-01) purpose is to stimulate
economic activities in the communities served by low-income credit unions. This in turn will
result in increased income, ownership and employment opportunities for low-wealth residents
and other economic growth. The auditors issued an unmodified opinion on the Fund’s financial
statements. The Community Development Revolving Loan Fund’s total assets for 2013 were
$16.9 million, unchanged from 2012.



Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                   Page | 14
NCUA Office of Inspector General




The Central Liquidity Facility (OIG-14-02) was established as a mixed ownership government
corporation managed by the NCUA Board to improve general financial stability by meeting the
liquidity needs of credit unions. The auditors issued an unmodified opinion on the Central
Liquidity Facility’s (CLF) financial statements. The CLF’s total assets for 2013 were $139
million, down from $112 million in 2012.

The NCUA Operating Fund (OIG-14-03) was established as a revolving fund managed by the
NCUA Board for the purpose of providing administration and service to the federal credit union
system. The auditors issued an unmodified opinion on the Operating Fund’s financial
statements. The fund’s total assets for 2013 were $77.3 million, down from $77.4 million in
2012.

The National Credit Union Share Insurance Fund (OIG-14-04) was established as a revolving
fund managed by the NCUA Board to insure member share deposits in all Federal credit unions
and qualifying state credit unions. The auditors issued an unmodified opinion on the Share
Insurance Fund’s financial statements. The Fund’s total assets for 2013 were 11.6 billion, down
from $11.9 billion in 2012.

OIG-14-05 –March 17, 2014
2013 NCUA Financial Statement Audit of the Temporary Corporate Credit Union Stabilization
Fund

Our contracting audit firm, KPMG LLP, issued its opinion on the 2013 financial statements of
the National Credit Union Administration Temporary Corporate Credit Union Stabilization Fund
(TCCUSF). The auditors found that the financial statements presented fairly the financial
position of the agency fund as of December 31, 2013 and issued an unmodified opinion on the
TCCUSF’s financial statements.

The TCCUSF was created by Public Law 111-22, “Helping Families Save Their Homes Act of
2009,” enacted May 20, 2009. The fund was established as a revolving fund in the Treasury of
the United States under the management of the Board of Directors of the NCUA. The purposes
of the TCCUSF are to accrue the losses of the corporate credit union system, and over time, to
assess the credit union system for the recovery of such losses. The TCCUSF’s net position was a
$142 million deficit for the period ending December 31, 2013.

OIG-14-06 – March 26, 2014
Material Loss Review of Taupa Lithuanian Credit Union

The OIG contracted with Moss Adams LLP to conduct a Material Loss Review (MLR) of Taupa
Lithuanian Credit Union (Taupa). The objectives of the MLR were to: (1) determine the cause
of the credit union’s failure and resulting loss to the Share Insurance Fund; (2) assess NCUA’s
supervision of the credit union; and (3) provide appropriate suggestions and/or recommendations
to prevent future losses.



Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                  Page | 15
NCUA Office of Inspector General




We determined Taupa failed because its management fraudulently overstated assets, specifically
cash on deposit, and understated shares. We also determined NCUA could have mitigated the
loss to the Share Insurance Fund had examiners adequately identified the Transaction Risks and
addressed the red flags that were present at Taupa by performing additional procedures related to
those risks.

This report reaffirms three recommendations made in recent OIG reports to NCUA management
related to fraud training, independent account confirmations, and direct communication with
external auditors. The report also makes two observations related to examiner’s use of Red Flag
Questionnaires and metric analysis.

Audits in Progress

NCUA’s Credit Union Success Stories

The OIG is conducting a review of NCUA credit union success stories to help NCUA in its
supervisory oversight of the credit union industry moving forward. Specifically, we are identifying
lessons learned from past NCUA successful cases where specific corrective actions helped revive
failing credit unions. This is a discretionary audit from our 2013 Annual Audit Plan.

Mobile Security Devices

NCUA provides iPhones and iPads for use by select users. In addition, NCUA allows NCUA users
to connect their personally-owned mobile devices such as the Apple iPhone, iPad, Android, and
Windows Mobil to the NCUA Exchange server to receive corporate email, calendar, and contacts.

Mobile handheld devices can be used not only for voice calls, simple text messages, and Personal
Information Management but also for many functions done at a desktop computer. While handheld
devices provide many productivity benefits, they also pose new risks to an organization’s security.
In this review we will determine whether NCUA has adequate mobile device security controls to
adequately protect NCUA information and information systems assets.

Travel and Purchase Card Review

The OIG is currently conducting a review of NCUA’s purchase and travel cards in compliance
with the Government Charge Card Abuse Prevention Act of 2012 to: (1) assess, identify, and
analyze risks of illegal, improper, or erroneous purchases and payments made through NCUA’s
purchase and travel card programs; and (2) determine whether the results of our risk assessments
justify performing an audit in compliance with Government Auditing Standards.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                    Page | 16
NCUA Office of Inspector General




House of Representatives Committee on Financial Services Request

On March 24, 2014, our office received a bipartisan request from the United States House of
Representatives Committee on Financial Services to review NCUA’s “internal operations to
determine whether any personnel practices have created a discriminatory workplace or otherwise
systematically disadvantaged minorities from obtaining senior management positions.” We have
started a review of this area.

Significant Audit Recommendations on Which Corrective Action Has Not Been Completed

As of March 31, 2014, below is a list of OIG reports with unimplemented recommendations where
management has agreed to implement corrective action but has yet not completed those actions.
This information is based on (1) information supplied by NCUA Office of Examination and
Insurance and (2) the OIG’s report recommendation tracking system.

Report Number, Title, and Date

OIG-10-20 OIG Capping Report on Material Loss Reviews, November 23, 2010

Significant Recommendations Open and Brief Summary

On November 23, 2010, the OIG issued report #OIG-10-20 titled OIG Capping Report on Material
Loss Reviews. There is 1 open recommendation related to the regulatory guidance to establish
limits or other controls for concentrations that pose an unacceptable safety and soundness risk and
determine an appropriate range of examiner response to high-risk concentrations.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                    Page | 17
NCUA Office of Inspector General




Report on Credit Union Losses under Materiality Level of $25 Million

Dodd Frank requires the NCUA OIG to perform a limited review where the Share Insurance
Fund incurred a loss below the $25 million threshold with respect to an insured credit union.
The OIG must report to the NCUA Board and the Congress every 6 months on the results of the
limited reviews and the timeframe for performing any subsequent in-depth reviews we determine
are necessary.

This report on losses below the $25 million threshold covers the six-month period from October
1, 2013, to March 31, 2014. For all losses to the Share Insurance Fund under the MLR
threshold, we determined: (1) why NCUA initiated assistance; and (2) whether any unusual
circumstances existed that might warrant an in-depth review of the loss.

For each limited review, we performed procedures that included, but were not limited to: (1)
obtaining and analyzing the regulator’s supervisory memoranda and other pertinent documents;
(2) preparing a schedule of CAMEL ratings assigned to the institution through full scope or other
examinations during the five years preceding the failure; (3) conducting interviews as needed;
(4) inquiring about any investigative actions that were taken, planned, or considered involving
credit union officials or others; and (5) analyzing supervisory history and other review methods.

We conducted limited reviews of eight failed credit unions that incurred losses to the Share
Insurance Fund under $25 million between October 1, 2013, and March 31, 2014. Based on
those limited reviews, we determined that none of the losses warranted conducting additional
work because no unusual circumstances presented themselves in our review; or we had already
addressed the reasons identified for failure in recommendations to the agency in previous MLR
reports.

The chart below provides details on the eight credit union losses to the Share Insurance Fund
below the $25 million threshold. It provides details on the credit union, such as the date of
failure, the estimated loss to the Share Insurance Fund, and grounds for conservatorship, merger,
or other factors. The chart also provides our decision whether to terminate or proceed with a
full-scope MLR of the credit union.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                    Page | 18
NCUA Office of Inspector General




             DECISIONS REGARDING LOSSES LESS THAN $25 MILLION
                                                       Est. Loss
                                           Date of                    Grounds for the NCUA
Decision**    Credit Union       Region                   to
                                           Failure                        Appointment
                                                       NCUSIF
                                                                   Critically undercapitalized with
                                                                   no prospect of recovery due to
                                                                   weak management, poor
                                                                   internal controls, excessive
             Southside Credit
Terminate                         IV      11/30/2013    $50K       operating expenses, poor
                  Union
                                                                   underwriting for both consumer
                                                                   and member business loans and
                                                                   high Provision for Loan Loss
                                                                   expense.
                                                                   Insolvent with no prospect of
                                                                   recovery due to weak
                                                                   management, which allowed the
             SJH Employees’
Terminate                         IV      12/01/2013    $378K      credit union to become critically
              Credit Union
                                                                   undercapitalized due to poor
                                                                   loan quality and weak
                                                                   recordkeeping.
                                                                   Insolvent with no prospect of
               St. Francis                                         recovery due to fraud
Terminate     Campus Credit       IV      2/14/2014    $12.9M      committed by the manager
                 Union                                             through the manipulation of
                                                                   members' accounts.
                                                                   Insolvent with no prospect of
                                                                   recovery due to fraud
                                                                   committed by the manager and
             Jayhawk Federal
Terminate                         IV      2/28/2014     $450K      assistant manager through the
               Credit Union
                                                                   posting of fraudulent entries to
                                                                   the credit union’s ACH and
                                                                   money order clearing accounts.
                                                                   Insolvent with no prospect of
                                                                   recovery due to management’s
                                                                   inability to correct identified
             Union Settlement
                                                                   weaknesses, resulting in
Terminate     Federal Credit       I      3/14/2014     $150K
                                                                   continued operating losses and
                  Union
                                                                   declining net worth, as well as
                                                                   poor asset quality exhibited by
                                                                   continued elevated delinquency.
                                                                   Insolvent with no prospect of
                                                                   recovery due to fraud committed
             Parsons Pittsburg
Terminate                         IV      3/21/2014     $9.4M      by the manager through
               Credit Union
                                                                   unrecorded nonmember
                                                                   deposits.


Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                     Page | 19
NCUA Office of Inspector General




DECISIONS REGARDING LOSSES LESS THAN $25 MILLION (continued)
                                                           Est. Loss
                                             Date of                        Grounds for the NCUA
Decision**     Credit Union      Region                       to
                                             Failure                            Appointment
                                                           NCUSIF
                                                                        Critically undercapitalized with
                                                                        no prospect of recovery due to
                                                                        Management’s inability to
                                                                        comply with goals outlined in a
              Oldham Family                                             Net Worth Restoration Plan and
Terminate     Alliance Federal      II      3/31/2014       $150K       correct repeat Document of
               Credit Union                                             Resolution issues such as poor
                                                                        recordkeeping, failure to charge
                                                                        off non-performing loans, poor
                                                                        marketing, and high operating
                                                                        expenses.
                                                                        Insolvent with no prospect of
                                                                        recovery due to fraud, which
              Mayfair Federal
Terminate                           II      3/31/2014       $1.57M      included fictitious nonmember
               Credit Union
                                                                        deposits, manipulated financial
                                                                        records, and missing cash.

**Criteria for each decision included: (1) dollar value and/or percentage of loss; (2) the institution’s
background, such as charter type and history, geographic location, affiliations, business strategy;
(3) uncommon cause of failure based on prior MLR findings; (4) unusual supervisory history, including
the nature and timing of supervisory action taken, noncompliance with statutory examination
requirements, and/or indications of rating disagreements between the state regulator and NCUA; and (5)
other, such as apparent fraud, request by NCUA Board or management, Congressional interest, or IG
request.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                          Page | 20
NCUA Office of Inspector General




Peer Reviews - October 1, 2013 through March 31, 2014

Government Auditing Standards require audit organizations that perform audits and attestation
engagements of federal government programs and operations undergo an external peer review
every three years. The objectives of an external peer review include a review of an audit
organization’s system of quality control to determine not only the suitability of the design, but
also whether the audit organization is in compliance with its quality control system so as to
provide reasonable assurance the audit organization conforms to applicable professional
standards.

External Peer Review of NCUA OIG Office of Audit

The Peace Corps OIG completed our most recent peer review on February 4, 2013 for the three-
year period ended December 31, 2012. The Peace Corps OIG issued its report entitled System
Review Report and rendered the opinion that the system of quality control for the NCUA OIG,
Office of Audit, was suitably designed and complied with, thus providing reasonable assurance
the system of controls conformed with applicable professional standards in all material respects.
As a result, we received a peer rating of pass. In addition, we have no outstanding
recommendations from this external peer review. A copy of this report is included herein as
Appendix A.

External Peer Review of National Labor Relations Board OIG Office of Audit

The NCUA OIG completed a peer review of the National Labor Relations Board (NLRB) OIG.
On October 31, 2011, we issued an external peer review report for the audit function of the
NLRB OIG for the three year period ended September 30, 2011. The NLRB received a rating of
pass and has no outstanding recommendations related to the peer review report.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                      Page | 21
NCUA Office of Inspector General




INVESTIGATIVE ACTIVITY

In accordance with professional standards and guidelines established by the United States
Department of Justice, the NCUA OIG Office of Investigations (OI) conducts investigations of
criminal, civil, and administrative wrongdoing involving the agency’s programs, operations, and
personnel. Our investigative program focuses on activities designed to promote both efficiency
and economy within the NCUA and its programs and operations, and to fight fraud, waste, and
abuse. In this regard, we investigate referrals and allegations of misconduct on the part of
NCUA employees, former employees, and contractors. Investigations may involve possible
violations of regulations involving Federal employee responsibilities and conduct, agency
policies, Federal criminal law, and other statutes and regulations. Finally, we have a robust
training program within the agency that encompasses integrity awareness briefings and
orientation presentations regarding the role of the OIG within the agency and how to report
wrongdoing to the OI.

Additionally, we routinely receive complaints from credit union officials and their members,
which involve NCUA employee program responsibilities. We examine these complaints and
determine if there is any indication of misconduct or wrongdoing by an NCUA employee. If not,
we refer the complaint to the NCUA Office of Consumer Protection (OCP) or appropriate
regional office for response, or close the matter if contact with the OCP or the regional office
indicates that the matter has already been appropriately handled.

The instructional guidance the OI provides to new NCUA employees and newly appointed
supervisors about the respective roles and responsibilities of the OIG and NCUA employees
facilitates more open communication between both. The final product is a stronger agency.

OIG Hotline Contacts

The OIG has and maintains a 24-hour toll free hotline to enable employees and citizens to call in
and provide information about suspected fraud, waste, and abuse or mismanagement involving
agency programs or operations. Additionally, the OIG receives complaints from an off-site post
office box, electronic mail, and facsimile messages. The OI has also developed an electronic
version of a hotline complaint form, located on the NCUA intranet. The electronic form offers
an additional venue for confidential employee and contractor communication with the OIG. All
information received from any of these sources is referred to as a hotline contact. Our Office
Manager, under the direction of the Director of Investigations, administers the OIG hotline
program.

The majority of hotline contacts received is from consumers seeking assistance with problems
encountered within their respective credit unions. As discussed above, these contacts are
generally referred to the OCP and regional offices for action.

In recent years, however, the OIG Hotline has also become a valuable repository for reports of
potential cases of fraud in credit unions. While the OIG does not, in most cases, have


Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                    Page | 22
NCUA Office of Inspector General




jurisdiction to investigate fraudulent activity that takes place in credit unions, it analyzes the
information obtained through the Hotline and refers potential cases of fraud to the appropriate
regional office, the Office of Examination and Insurance, and the Office of General Counsel for
immediate review and action. Moreover, the OIG relays general information from these referrals
at new employee and supervisor training sessions to alert NCUA employees about the need for
heightened fraud awareness.


                      Hotline Complaints




                                              Phone Call/Voicemail
                                              Email
                                              Letter/Facsimile




Phone Call/Voicemail           73
Email                          88
Letter/Facsimile               22
Total:                        183


INVESTIGATIONS

Employee Misconduct /Alleged Harassment

During the previous reporting period, the OIG received information alleging harassment of a
federal credit union employee by two NCUA examiners during an examination. The
investigation found that one of the examiners may have used interviewing techniques that were
unduly “heavy-handed” and inappropriate. Allegations concerning the other examiner were not
substantiated. The OIG issued a Report of Investigation and closed this case during this
reporting period.

Employee Misconduct /Alleged Harassment

During the reporting period, the OIG received allegations that an NCUA supervisor, on several
occasions, received vaguely threatening messages on his NCUA-issued iPhone voicemail. The



Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                    Page | 23
NCUA Office of Inspector General




supervisor alleged that one of his subordinates was the suspected caller, because he had recently
placed the employee on a performance improvement plan. This investigation is ongoing.

Employee Misconduct/Inappropriate Conduct

The OIG received a complaint that an NCUA examiner, in the course of conducting an
examination at a credit union, made intimidating comments to one of the credit union’s vendors,
potentially threatening the vendor’s business standing in the credit union community. This
investigation is ongoing.

Employee Misconduct/Gross Mismanagement/Abuse of Authority

During this reporting period, the OIG received allegations from employees concerning gross
mismanagement and abuse of authority on the part of two NCUA managers. This investigation
is ongoing.

Investigation for Farm Credit Administration OIG/Inappropriate Personnel Practices

Because of an internal conflict of interest, the NCUA OIG provided investigative assistance to
the Farm Credit Administration (FCA) OIG in a matter involving allegations of inappropriate
personnel practices. The OIG conducted an investigation and subsequently issued a
Management Implication Report that found no violations of federal regulations or FCA policy,
but noted concerns with FCA internal operations. This investigation is closed.

Employee Misconduct/Unauthorized Use of Government Computer

During the previous reporting period, the OIG received allegations that an employee had used his
agency-issued laptop computer to upload/download pornographic materials from the internet.
An investigative search of the employee’s computer hard drive failed to retrieve evidence that
the employee had accessed pornographic materials. However, the investigation found that the
employee had inappropriately downloaded a third-party software program (Internet Eraser) onto
his laptop. The OIG issued a final report and closed this case during the reporting period.

Agency Ethics Screening Process for New Board Member

During the reporting period the OIG analyzed the ethics screening of then-incoming Board
Member Rick Metsger, conducted by the NCUA’s Agency Ethics Officers (AEOs). The OIG
found the ethics screening process was thorough and the AEOs’ determination that Board
Member Metsger was in full compliance with all conflict of interest laws and regulations was
sound. We also found that the AEOs properly analyzed the ethics issues related to the Board
Member’s attendance at a post-swearing in reception and appropriately interpreted ethics rules
and regulations in determining that his attendance at the event was permissible. Finally, we
found that Board Member Metsger complied fully with the AEOs’ recommendations regarding
the terms of his attendance.


Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                    Page | 24
NCUA Office of Inspector General




Peer Reviews - October 1, 2013 through March 31, 2014

Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs that have
been granted statutory law enforcement authority pursuant to the Act, to be periodically reviewed
by another OIG or a committee of OIGs (Peer Review). The purpose of the peer review is to
ascertain whether adequate internal safeguards and management procedures exist to ensure that
the law enforcement powers conferred by the 2002 amendments to the Act are properly
exercised. The NCUA OIG does not have statutory law enforcement authority. Consequently,
our investigative organization is not required to have a peer review and to date, has neither
undergone a peer review nor conducted a peer review of another OIG.




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                   Page | 25
NCUA Office of Inspector General




LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
proposed legislation and regulations relating to the programs and operations of the NCUA and to
make recommendations concerning their impact. Moreover, we routinely review agency
program and policy guidance, in order to make recommendations concerning economy and
efficiency in the administration of NCUA programs and operations and the prevention and
detection of fraud, waste and abuse.

During the reporting period, the OIG reviewed 30 items, including proposed legislation,
proposed and final regulations, and NCUA Letters to Credit Unions (LCU). The OIG also
responded to five (5) Freedom of Information Act (FOIA) requests.

             SUMMARY OF STATUTES AND REGULATIONS REVIEWED
    Legislation                                         Title

 H.R. 1163            The Federal Information Security Amendments Act of 2013
                      The Strengthening and Enhancing Cybersecurity by Using Research,
 H.R. 1468__          Education, Information, and Technology Act of 2013
      Regulations/Rulings                                       Title

 12 CFR Parts 703, 715, and 741    Final Action: Derivatives
 12 CFR Parts 700, 701, and 704    Final Action: Technical Amendments
 12 CFR Part 721                   Final Action: Charitable Donation Accounts
                                   Final Action: Appraisals for Higher-Priced Mortgage
 12 CFR Parts 34, 226, and 1026    Loans; Supplemental Final Rule
 12 CFR Parts 712 and 741          Final Action: Credit Union Service Organizations
 12 CFR Parts 741 and 748          Final Action: Filing Financial and Other Reports
 12 CFR Parts 741                  Final Action: Liquidity and Contingency Funding Plans
                                   Minimum Requirements for Appraisal Management
 (P.L. 101-203, sec. 1124)         Companies
 12 CFR Part 710                  Proposed Rule: Voluntary Liquidation
 12 CFR Parts 700, 701, 702, 703, Proposed Rule: Prompt Corrective Action; Risk-Based
 713 and 747                      Capital
                                  Proposed Rule: Requirements for Contacts with Federal
 12 CFR Part 701                  Credit Unions




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                   Page | 26
NCUA Office of Inspector General




Regulations/Rulings (continued)                               Title
                                   Proposed Interagency Policy Statement Establishing Joint
                                   Standards for Assessing the Diversity Policies and Practices
                                   of Entities Regulated by the Agencies and Request for
 P.L. 101-203 sec. 342(b)(2)(C)    Comment
 12 CFR Part 702                   Proposed Rule: Capital Planning and Stress Testing
                                   Proposed Rule: Loans in Areas Having Special Flood
 12 CFR Part 760                   Hazards

  Letters to Credit Unions                                  Title

 NCUA LCU 14-CU-05            Liquidity Requirements Take Effect March 31
 NCUA LCU 14-CU-04            Derivatives Applications Open March 3
                              Civil Money Penalties to be Assessed for Late Call Report and
 NCUA LCU 14-CU-03            Profile Submissions in 2014
 NCUA LCU 14-CU-02            Supervisory Focus for 2014
                              Supervisory Guidance on Qualified and non-Qualified
 NCUA LCU 14-CU-01            Mortgages
 NCUA LCU 13-CU-15            Private Student Loans
                              Projected 2014 Stabilization Fund Assessment and Share
 NCUA LCU 13-CU-14            Insurance Fund Premium Range
                              Changes to NCUA Regulations Related to Credit Union Service
 NCUA LCU 13-CU-13            Organizations
 NCUA LCU 13-CU-12            Supervisory Guidance on Enterprise Risk Management
                              Electronic Filing of Call Reports and Extended Filing Dates for
 NCUA LCU 13-CU-11            2014
                              Guidance on How to Comply with NCUA Regulation §741.12
 NCUA LCU 13-CU-10            Liquidity and Contingency Funding Plans
 NCUA LCU 13-CU-09            Examination Report Modernization
 NCUA LCU 14-FCU-02           Permissible Interest Rate Ceiling Extended
 NCUA LCU 14-FCU-01           Operating Fee Scale Reduced for 2014




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                   Page | 27
   NCUA Office of Inspector General




                   TABLE I: ISSUED REPORTS WITH QUESTIONED COSTS

                                                         Number of Questioned       Unsupported
                                                          Reports    Costs             Costs

              For which no management decision
         A.   had been made by the start of the
              reporting period.                              0            $0             $0

         B.   Which were issued during the
              reporting period.                              0             0              0


              Subtotals (A + B)                              0             0              0

         C.   For which management decision was
              made during the reporting period.              0             0              0


              (i) Dollar value of disallowed costs           0             0              0

              (ii) Dollar value of costs not allowed
                                                             0             0              0
              For which no management decision
         D.   has been made by the end of the
              reporting period.                              0             0              0
              Reports for which no management
         E.   decision was made within six months
              of issuance.                                   0             0              0

Questioned costs are those costs the OIG has questioned because of alleged violations of laws,
regulations, contracts, or other agreements; findings which at the time of the audit are not supported by
adequate documentation; or the expenditure for the intended purpose is unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned because of
the lack of adequate documentation at the time of the audit.




   Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                        Page | 28
   NCUA Office of Inspector General




             TABLE II: ISSUED REPORTS WITH RECOMMENDATIONS THAT
                           FUNDS BE PUT TO BETTER USE
                                                     Number of Dollar
                                                      Reports  Value


             For which no management decision had been made
        A.
             by the start of the reporting period.                     0            $0


        B.   Which were issued during the reporting period.            0             0



             Subtotals (A + B)                                         0             0


             For which management decision was made during
        C.
             the reporting period.                                     0             0


             (i) Dollar value of recommendations agreed to by
             management.                                              N/A           N/A


             (ii) Dollar value of recommendations not agreed to
             by management.                                           N/A           N/A


             For which no management decision was made by the
        D.
             end of the reporting period.                              0             0


             For which no management decision was made within
        E.
             six months of issuance.                                   0             0

Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that funds could
be used more efficiently if management took actions to reduce outlays, de-obligate funds from
programs/operations, avoid unnecessary expenditures noted in pre-award reviews of contracts, or any
other specifically identified savings.




   Semiannual Report to the Congress, October 1, 2013 – March 31, 2014               Page | 29
    NCUA Office of Inspector General




                           TABLE III: SUMMARY OF OIG ACTIVITY
                              October 1, 2013 through March 31, 2014
                                       Part I – Audit Reports Issued

 Report                                                                                Date
 Number                                           Title                               Issued

OIG-13-10     Material Loss Review of Chetco Federal Credit Union                   10/12/2013
              Review of NCUA’s Process for Documenting Share Insurance Fund Losses and
OIG-13-11     Credit Union Failures                                                 10/29/2013
              Independent Evaluation of the NCUA’s Compliance with the Federal
OIG-13-12     Information Security Management Act (FISMA) 2013                      11/22/2013

OIG-13-13     Material Loss Review of G.I.C Federal Credit Union                     12/2/2013
              NCUA Financial Statements Audit 2013: Community Development
 OIG-14-      Revolving Loan Fund, Central Liquidity Facility, Operating Fund, Share
01/02/03/04   Insurance Fund                                                         2/18/2014
              2013 NCUA Financial Statement Audit of the Temporary Corporate Credit Union
OIG-14-05     Stabilization Fund                                                     3/17/2014

OIG-14-06     Material Loss Review of Taupa Lithuanian Credit Union                 3/26/2014
                          Part II – Audits in Progress (as of March 31, 2014)


NCUA’s Credit Union Success Stories

Mobile Security Devices

Travel and Purchase Card Review

House of Representatives Committee on Financial Services Request




    Semiannual Report to the Congress, October 1, 2013 – March 31, 2014           Page | 30
 NCUA Office of Inspector General




                         INDEX OF REPORTING REQUIREMENTS

                                                                                                 Page
Section                                    Data Required
                                                                                                 Ref

4(a)(2)    Review of legislation and regulations                                                 26
           Significant problems, abuses, or deficiencies relating to the administration of
5(a)(1)    programs and operations disclosed during the reporting period.                        12
           Recommendations with respect to significant problems, abuses or
5(a)(3)    deficiencies                                                                          xx
           Significant recommendations described in previous semiannual reports on
5(a)(3)    which corrective action has not been completed.                                       17
           Summary of matters referred to prosecution authorities and prosecutions
5(a)(4)    which have resulted.                                                                 None
           Summary of each report to the Board detailing cases where access to all
5(a)(5)    records was not provided or where information was refused.                           None

5(a)(6)    List of audit reports issued during the reporting period.                             30

5(a)(7)    Summary of particularly significant reports.                                          12

5(a)(8)    Statistical tables on audit reports with questioned costs.                            28
           Statistical tables on audit reports with recommendations that funds be put to
5(a)(9)    better use.                                                                           29
           Summary of each audit report issued before the start of the reporting period
           for which no management decision has been made by the end of the reporting
5(a)(10)   period.                                                                              None
           Description and explanation of reasons for any significant revised
5(a)(11)   management decision made during the reporting period.                                None
           Information concerning significant management decisions with which the
5(a)(12)   Inspector General is in disagreement.                                                None
           An appendix containing the results of any peer review conducted by another
           OIG during the reporting period or, if no peer review was conducted within
           that reporting period, a statement identifying the date of the last peer review
5(a)(14)   conducted by another OIG.                                                             32
           List of outstanding recommendations from any peer review conducted by
5(a)(15)   another OIG that have not been fully implemented.                                    None
           A list of any peer reviews conducted by the IG of another OIG during the
           reporting period, including a list of any outstanding recommendations made
5(a)(16)   that remain outstanding or have not been fully implemented.                           21



 Semiannual Report to the Congress, October 1, 2013 – March 31, 2014                         Page | 31
NCUA Office of Inspector General



Appendix A: System Review Report (Peer Review of NCUA OIG)




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014   Page | 32
NCUA Office of Inspector General




Semiannual Report to the Congress, October 1, 2013 – March 31, 2014   Page | 33
